 

IN THE SUPREME COURT OF THE UNITED STATES

BRIAN CHARLES ZELLNER, PETITIONER
v.
THE STATE OF GEORGIA, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF GEORGIA

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Brian Charles Zellner, through attorney John W. Donnelly,
respectfully moves the Court to enter an order permitting him to proceed in forma
pauperis. As grounds for and in support of this motion, Petitioner states as
follows:

1. Mr. Zellner has been determined by the trial court and the office of the
public defender to be indigent for purposes of appointed counsel which
includes appeals. Additionally, Mr. Zellner is currently incarcerated on a
prison sentence and remains indigent.

2. Georgia Code Ann. ยง 17-12-1 et. seq. authorizes and requires the circuit
public defender office to represent indigent defendants in felony criminal

cases who request appointed counsel.
3. Mr. Zellner requested appointed counsel and met the county financial
guidelines for public defender services. Based on his request and
qualifying financial status, undersigned counsel appeared as counsel in
the trial court. The trial court did not issue an appointment order.

4. Undersigned counsel, to represent Petitioner on appeal in the Georgia
courts, was given permission to proceed in forma pauperis in those courts.

5. Undersigned counsel is a full-time employee of the Georgia Public
Defender Council.

Therefore, Petitioner respectfully requests that he be permitted to proceed
in forma pauperis in this action.

Submitted this _Z OP day of November, 2020.

W lpr Ay
ee ee

Counsel for Petitioner
